U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


    DEPARTMENT OF COMMERCE
         Most Departmental Discretionary
    Funding Programs Are Competitive and
    Merit-Based, but Opportunities Exist to
     Further Improve the Awards Processes
       Audit Report No. ATL-10835-0-0001/September 2000




                  Office of Audits, Atlanta Regional Office
U.S. Department of Commerce                                                                        Audit Report ATL-10835-0-0001
Office of Inspector General                                                                                      September 2000

                                                  TABLE OF CONTENTS

                                                                                                                                    Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FEDERAL LAWS, REGULATIONS, AND PROCEDURES
THAT GUIDE DISCRETIONARY FUNDING DECISIONS
ENCOURAGE COMPETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     I.        MOST COMMERCE DISCRETIONARY PROGRAMS ARE
               ADMINISTERED ON COMPETITIVE AND MERIT BASES, BUT
               OPPORTUNITIES EXIST TO IMPROVE THEIR AWARD PROCESSES . . . . . . . 7

               A. All but Three Programs Met Minimum Public Notice Requirements,
                  but Many Could Benefit by Augmenting Solicitation Methods . . . . . . . . . . . . . . . . 8

               B. Most Programs Utilized Written Competitive Review Procedures
                  and Merit-Based Evaluation Criteria, but Could Benefit from Increasing
                  the Independence of Review Panels and Better Documenting Evaluations . . . . . . 10

               C. Selecting Officials Generally Follow Review Panel Recommendations, but for Some
                  of the Decisions that Deviate from Panel Recommendations, there Should be Better
                  Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

     II.       SOME PROGRAMS THAT SHOULD BE COMPETITIVE ARE NOT,
               AND NONCOMPETITIVE AWARDS GENERALLY NEED TO BE BETTER
               JUSTIFIED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

     III.      OPPORTUNITIES EXIST FOR THE DEPARTMENT TO IMPROVE
               COMPETITIVE AWARD PROCESSES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

     IV.       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

     V.        FUNDS TO BE PUT TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         21

     VI.       DEPARTMENT’S RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

     VII.      OIG COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
U.S. Department of Commerce                                          Audit Report ATL-10835-0-0001
Office of Inspector General                                                        September 2000

APPENDIXES

        I     Department of Commerce Operating Units Administering
              Financial Assistance Programs

        II    Full Discretion Programs

        III   Limited Discretion Programs

        IV    OIG Audit Reports on Discretionary Funding Programs

        V     Related Reports Issued by the OIG and Others

        VI    Summary Schedule of Findings by Program

        VII Schedule of Federal Assistance Award Data System Discrepancies

        VIII Department’s Response to Draft Report
U.S. Department of Commerce                                                 Audit Report ATL-10835-0-0001
Office of Inspector General                                                               September 2000

                                      EXECUTIVE SUMMARY

Seven operating units of the Department of Commerce administer 72 discretionary financial assistance
programs1 providing more than $1 billion a year, or about a quarter of the Department’s budget, to
state and local governments, nonprofit and for-profit organizations, and individuals. The following
graph shows the number of discretionary funding programs and fiscal year 1997 obligations by
operating unit.

                              Commerce Discretionary Funding Programs
                                  and Their FY 1997 Obligations
                                         by Operating Unit

                                       72 Programs = $1.1 Billion




We conducted a comprehensive audit of the Department’s discretionary funding programs at the
request of the Chairman of the Senate Committee on Commerce, Science, and Transportation. The
purpose of the audit was to identify the laws, regulations, policies and procedures established to guide
agency officials in making discretionary spending decisions, to evaluate the adequacy of departmental
and operating unit policies and procedures applicable to the administration of Commerce’s financial
assistance programs, and to determine the extent to which the policies and procedures were followed.

Using authorizing legislation for each of the 72 Commerce financial assistance programs, we classified
each program as being either a “full discretion” program or a “limited discretion” program, based on the
extent to which the legislation limited the agency’s authority to independently determine the recipients
and dollar amounts of the awards. We classified 34 programs as limited discretion and the other 38 as

        1
          As used in this report, discretionary financial assistance programs are those for which the
funding agency has the legislative authority to independently determine the recipients and funding levels
of financial assistance awards, without reference to legislated formulas or entitlement criteria.

                                                     -i-
U.S. Department of Commerce                                                    Audit Report ATL-10835-0-0001
Office of Inspector General                                                                  September 2000

full discretion programs. Since five of the full discretion programs had no obligations in recent years
and were inactive, we conducted individual audits of the remaining 33 full discretion programs and
reported on each.

This report summarizes the results of the individual audits, identifies crosscutting issues, highlights “best
practices,” identifies weaknesses in departmental policies, procedures, and practices, and offers
recommendations for improving them.

One of the primary purposes of the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301
et seq.) is to encourage competition in the award of federal financial assistance to the maximum extent
practicable. Competition is generally recognized as the most effective means of ensuring that financial
assistance awards are made on the basis of merit. As a result, we primarily evaluated each of the 33
individual programs on its adherence to the following three critical elements identified by OMB as
essential to ensure effective competition.

!    Widespread solicitation of eligible applicants and disclosure of essential application and program
     information in written solicitations;

!    Independent application reviews that consistently apply written program evaluation criteria; and

!    Written justification for award decisions that deviate from recommendations made by application
     reviewers.

AUDIT RESULTS

We found that the Department’s discretionary funding policies and procedures were, for the most part,
adequate to promote merit-based funding decisions. At the same time, we identified opportunities to
improve the processes. Specifically, our audit found that:

!    Most (21 out of 33) Department of Commerce financial assistance programs that have full
     legislative discretion to independently determine their recipients and funding levels are
     competitively administered. As a result, there is reasonable assurance that awards made under
     those 21 programs were merit-based.

!    In 1985 the Department developed and issued Department Administrative Order 203-26,
     Department of Commerce Grants Administration, to guide agencies in making discretionary
     spending decisions. Although DAO 203-26 embraces competition as the most effective means of
     ensuring that financial assistance awards are merit-based, the DAO lacks clarity and specificity in
     the guidance it provides in certain instances. As a result, opportunities exist to improve the policies
     and procedures currently in use.



                                                     -ii-
U.S. Department of Commerce                                                                Audit Report ATL-10835-0-0001
Office of Inspector General                                                                              September 2000

!    The majority of the 33 individual financial assistance programs were adequately adhering to the
     Department’s policies and procedures for discretionary spending decisions, although we identified
     opportunities for each program to further refine and improve certain aspects of its award process.

!    Twelve programs of the 33 were not adequately adhering to the Department’s discretionary
     funding policies and procedures that require programs be administered on a competitive basis to
     the maximum extent practicable. As a result, there is no reasonable assurance that awards made
     under those twelve programs were merit-based.

MOST COMMERCE DISCRETIONARY PROGRAMS ARE ADMINISTERED
ON COMPETITIVE AND MERIT BASES, BUT OPPORTUNITIES EXIST TO FURTHER
IMPROVE THEIR AWARDS PROCESSES

As shown in the following table, among the 33 full discretion programs, 21, or nearly two-thirds, were
administered competitively utilizing evaluation criteria designed to result in merit-based funding
decisions. The 21 competitive programs accounted for $740 million, or about 92 percent of the total
obligations made for financial assistance programs in FY 1997. The other 12 programs, accounting for
$63 million, or only about 8 percent of the obligations, did not use competitive selection procedures,
but instead obligated discretionary funds through inadequately or inappropriately justified sole source
awards.

                                                                                                  Obligations
     Commerce                                         Number of         Number of
     Full Discretion Programs                         Programs           Awards         (in $ millions)    Percentage

     Competitive and merit-based                           21             1,500              740               92%

     Not competitive 2                                     12               238                63                8

     TOTAL                                                 33             1,738               803              100


Although most of the financial assistance programs were administered competitively, we found
opportunities for all of the agencies to refine and improve aspects of their awards processes.
Departmental policies and oversight and technical assistance activities could be improved by
institutionalizing some of the best practices successfully used by various Commerce agencies and other
federal agencies in soliciting, reviewing, and selecting proposals. The following sections on the
solicitation, review, and selection elements of the competitive process discuss the criteria established to
guide agency officials in making discretionary spending decisions, the extent to which the criteria were
appropriately applied, and opportunities to improve the processes. (See page 8.)


        2
            NIST’s Measurement and Engineering Research and Standards program made 172 awards in fiscal year 1997 of which
            125,
            totaling $17.6 million, were made noncompetitively, and 46, totaling $2.8 million, were made competitively. The
            number and dollar amount of the competitive awards made under this program are included in the competitive program
            counts.


                                                            -iii-
U.S. Department of Commerce                                                   Audit Report ATL-10835-0-0001
Office of Inspector General                                                                 September 2000

!    Widespread solicitation of eligible applicants and disclosure of essential application and
     program information in written solicitations.

All but three of the 21 competitive programs were meeting the Department’s minimum requirements of
placing a notice in the Federal Register soliciting applications for funding and clearly stating the criteria
to be used in evaluating applications. At the same time we believe that some programs could broaden
their solicitation of eligible applicants by supplementing their Federal Register notices with other forms
of advertising as some other Commerce programs are already doing. Examples of best practices being
used successfully by various programs include soliciting through Internet announcements, mailing lists,
annual conferences, and trade association newsletters. Fifteen programs used solicitation methods
beyond simply publishing notices in the Federal Register. Specifically, 14 programs used the Internet,
8 used other publications such as the Commerce Business Daily, and 8 used mailing lists. Eighteen of
the 21 programs clearly stated the application evaluation criteria in their solicitation notices, which
effectively disclosed essential application and program information. (See pages 8 through 10.)

!    Independent application reviews that consistently apply written program evaluation
     criteria.

On a very positive note, eighteen of the 21 programs that we characterized as competitive utilized
written competitive procedures and merit-based criteria in evaluating applications for funding. As we
completed our work we identified opportunities for most programs to further enhance the integrity of
the review process by increasing the independence of their review panels and better documenting the
results of application reviews. Independent application reviews that consistently apply written program
evaluation criteria help to ensure effective competition. To ensure a minimum degree of independence,
we believe a review panel should have at least one member who is outside the chain of command of the
selecting official. Only seven of the 21 programs met this threshold, and only 5 of the 7 used review
panels largely or wholly made up of reviewers outside the program office, including 3 that used
reviewers outside the federal government. Ideally, having all members outside the chain of command is
generally seen as the best practice. In addition, only 12 of the 21 programs adequately documented
their application evaluations. (See pages 10 through 13.)

!    Written justification for award decisions that deviate from recommendations made by
     application reviewers.

Among the 21 competitive programs, we found only 8 programs where selecting officials deviated from
the review panels’ recommendations. In five of those programs, reasons for deviating from the panel
recommendations were not adequately documented. (See pages 13 and 14.)

SOME PROGRAMS THAT SHOULD BE COMPETITIVE ARE NOT,
AND NONCOMPETITIVE AWARDS NEED TO BE BETTER JUSTIFIED

Twelve of the 33 full discretion programs did not use competitive procedures in making award
decisions, but instead obligated program funds through inadequately or inappropriately justified sole
source awards. Although Departmental and other federal guidelines recognize that individual proposals

                                                    -iv-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000

and projects may be justified for “noncompetitive” funding on an exception basis, an entire program
should not be administered on a noncompetitive basis, as the 12 were, unless authorized by law.
Absent such legislative direction, there should be an appropriate basis and an adequate written
justification for individual noncompetitive awards. For example, sole source awards should be justified
through documented market search efforts to validate the determination that there is only one source for
the anticipated award. (See pages 15 through 17.)

OPPORTUNITIES EXIST FOR THE DEPARTMENT TO
IMPROVE COMPETITIVE AWARD PROCESSES

In developing and issuing its policies and procedures, the Department has formally embraced federal
law and guidelines that encourage competition in the award of financial assistance to the maximum
extent practicable. However, opportunities exist to improve upon them. For example, departmental
policies and oversight activities could be improved by institutionalizing best practices. There are also
opportunities to improve Department-level technical assistance procedures and practices to further
enhance competition within Commerce financial assistance programs.

The Department has been diligently working to develop and issue a comprehensive grants and
cooperative agreements manual, and the new and expanded award procedures being incorporated in
the manual would resolve most of the issues raised in our individual program audits and incorporate
many of the best practices we have identified. The Department’s draft manual also contains provisions
for periodic reviews of program award processes. A 1997 departmental task force, which was
charged with reviewing and recommending improvements to the Department’s grants administration
policy and procedures, recommended, among other things, improvements in the guidance on
maintaining administrative records and a Department-wide training plan for financial assistance and
program personnel. Departmental regulations require that each organizational or program unit provide
OEAM with quarterly reports on all transactions involving the obligation and deobligation of federal
financial assistance funds. This information is then entered into the Department’s Federal Assistance
Award Data System. Our individual program audits revealed discrepancies totaling $15.5 million
between the fiscal year 1997 FAADS reported dollars in obligations and those recorded by the
individual operating units.

RECOMMENDATIONS

We have previously issued individual audit reports on each program, with appropriate
recommendations to facilitate these program managers’ efforts to improve their specific programs. We
are now recommending that the Department, for its part, take a series of actions aimed at helping its
operating units improve their financial assistance award processes by
(1) clarifying minimal departmental expectations for competition and (2) providing additional training, as
necessary and when requested. More specifically, we recommend that the Department’s Chief
Financial Officer and Assistant Secretary for Administration ensure that the Office of Administration:


                                                    -v-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000

1.   Improve the effectiveness of program solicitations by encouraging agencies to supplement Federal
     Register notices with Internet announcements, and when appropriate use other forms of
     advertising that have demonstrated their value as a “best practice” in enhancing the solicitation
     process.

2.   Enhance the integrity of application review processes by (a) defining the minimum criteria for
     independent review panels, (b) offering suggestions, ideas, and best practices for better facilitating
     the use of outside reviewers, and (c) establishing requirements for documenting the results of
     proposal evaluations.

3.   Improve documentation of selecting official justifications of award decisions that deviate from
     review panel recommendations by establishing appropriate documentation requirements.

4.   Improve the integrity of operating unit award processes by (a) more clearly defining acceptable
     bases for noncompetitive awards and (b) establishing requirements and guidelines and best
     practices for properly justifying and documenting noncompetitive awards. For example, require
     the use of market surveys to validate sole source award justifications.

5.   Improve departmental oversight of discretionary spending decisions by (a) reinitiating periodic
     reviews of program award processes and (b) providing training to program and grants officers on
     the Department’s policies and procedures.

6.   Improve the integrity of operating unit awards processes by establishing record retention policies
     and procedures for each element of the awards process.

7.   Improve the accuracy of reports on transactions involving the obligation and deobligation of
     federal financial assistance funds by reconciling OEAM’s grant database with operating unit
     databases, at least annually.

8.   Institutionalize recommended improvements by incorporating them into the “Department of
     Commerce Grants and Cooperative Agreements Manual” that is currently being developed.

FUNDS TO BE PUT TO BETTER USE

As discussed previously, one of the primary purposes of the Federal Grant and Cooperative
Agreement Act is to encourage competition in the award of federal financial assistance to the maximum
extent practicable. An unquantifiable portion of the more than $1 billion a year in discretionary financial
assistance obligated by the Department will be used more efficiently if competitive processes are
improved within the various programs by implementation of the foregoing recommendations and the
recommendations contained in the individual program audits.



                                                    -vi-
U.S. Department of Commerce                                                Audit Report ATL-10835-0-0001
Office of Inspector General                                                              September 2000

DEPARTMENT’S RESPONSE AND OIG COMMENTS

In response to the draft report, the Department agreed that opportunities exist to further improve the
grants and cooperative agreement processes and, as a result, generally agreed with all of the report’s
recommendations. The response stated that the Department has taken action addressing
recommendation #7 to improve the accuracy of reports on transactions involving the obligation and
deobligation of federal financial assistance funds, and that the other seven recommendations will be
addressed upon issuance of the Department’s Grants and Cooperative Agreement Manual, which is
near completion.

We are pleased by the operating units’ constructive responses to our findings and recommendations
contained in the individual audit reports on each program. We are also pleased by the Department’s
general concurrence with this summarizing report’s recommendations, in particular with an agreement to
institutionalize recommended improvements by incorporating them into the grants manual.




                                                  -vii-
U.S. Department of Commerce                                                 Audit Report ATL-10835-0-0001
Office of Inspector General                                                               September 2000
                                          INTRODUCTION

Seven operating units of the Department of Commerce administer 72 discretionary3 financial assistance
programs providing about $1 billion a year to state and local governments, nonprofit and for-profit
organizations, and individuals. These operating units are the National Oceanic and Atmospheric
Administration (49 programs), Economic Development Administration (8 programs), National Institute
of Standards and Technology (5 programs), International Trade Administration (4 programs), Minority
Business Development Agency (3 programs), National Telecommunications and Information
Administration (2 programs), and Office of the Secretary (1 program). Appendix I provides a brief
description of each operating unit’s mission and financial assistance programs.

In fiscal year 1997, the seven operating units made more than 2,900 awards. The average annual
funding level of an award was almost $380,000; however, the award amounts ranged from
$463 for a NOAA fisheries disaster grant to $11.4 million for a NIST Advanced Technology Program
cooperative agreement. The following graph shows the amount obligated by each operating unit for
discretionary awards.


                              Commerce Discretionary Funding Programs
                                  and Their FY 1997 Obligations
                                         by Operating Unit

                                         72 Programs = $1.1 Billion




        3
         The term discretionary in this context means that the funding agency has the legislative authority
to independently determine the recipients and funding levels of financial assistance awards.
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000
                                PURPOSE AND SCOPE OF AUDIT

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Committee on
Commerce, Science, and Transportation. The Chairman requested that the Inspectors General of the
Departments of Commerce and Transportation and the National Science Foundation review the
discretionary funding programs of their respective agencies to assess the manner in which discretionary
funding decisions are made. Specifically, the Chairman requested that each IG review and report on
the criteria developed, either statutorily or administratively, to guide agency officials in making
discretionary spending decisions, and the extent to which the criteria are appropriately applied.

We conducted our Department-wide review in two phases: a survey phase and an individual program
audit phase. During the survey phase, we identified and examined the body of laws, regulations, and
other guidance applicable to the administration of federal financial assistance programs, including
departmental and operating unit policies and procedures. These laws, regulations, and guidance are
discussed on pages 4 and 5. We also reviewed pertinent parts of an October 1998 draft of the
“Department of Commerce Grants and Cooperative Agreements Manual.” According to officials
responsible for overseeing the Department’s financial assistance programs, the Department of Health
and Human Services’ (HHS) Grants Administration Manual is recognized as one of the best and
most comprehensive manuals of its type used in the federal government and, therefore, we also
reviewed and relied on it for guidance. We examined the authorizing legislation provided by
Department of Commerce officials for each Commerce financial assistance program and classified each
program as either a “full discretion” or a “limited discretion” program, based on the extent to which the
legislation limits the agency’s authority to independently determine the recipients and funding levels of
awards made under the program.

As shown below, we classified 34 programs as limited discretion programs and the remaining 38
programs as full discretion programs. Five of the full discretion programs had no obligations in recent
years and were essentially inactive, so we conducted individual audits of each of the remaining 33 full
discretion programs. Lists of the programs classified as either full discretion or limited discretion and
their fiscal year 1997 obligations and number of awards by Commerce operating unit are provided as
Appendixes II and III.

                      NUMBER OF PROGRAMS BY OPERATING UNIT

                  OPERATING              LIMITED              FULL
                     UNIT              DISCRETION          DISCRETION            TOTAL

               NOAA                         31                   18                49
               EDA                           2                    6                 8
               NIST                          0                    5                 5
               ITA                           1                    3                 4
               MBDA                          0                    3                 3
               NTIA                          0                    2                 2
               O/S                           0                    1                 1

               TOTAL                        34                   38                72



                                                    -2-
U.S. Department of Commerce                                                     Audit Report ATL-10835-0-0001
Office of Inspector General                                                                   September 2000


                FY 1997 AWARDS AND OBLIGATIONS BY OPERATING UNIT

                         LIMITED DISCRETION           FULL DISCRETION                  TOTAL
                              AWARDS                     AWARDS                       AWARDS

       OPERATING       NUMBER        AMOUNT         NUMBER        AMOUNT        NUMBER      AMOUNT
       UNIT

       NOAA                   816    $274,401,688          448   $ 89,388,977     1,264             $
                                                                                            363,790,665

       EDA                    396      29,091,000          662    339,837,534     1,058     368,928,534

       NIST                     0              0           376    323,367,723       376     323,367,723

       ITA                     13      12,763,853           46      3,004,892        59      15,768,745

       MBDA                     0              0            51     11,139,314        51      11,139,314

       NTIA                     0              0           152     35,056,556       152      35,056,556

       O/S                      0              0             3      1,052,307         3       1,052,307

       TOTALS              1,225     $316,256,541      1,738     $802,747,303     2,963    $1,119,103,84
                                                                                                       4


During the second phase of our review, we conducted individual audits of the solicitation, review, and
selection processes of each of the 33 active financial assistance programs that we classified as full
discretion programs. We assessed the adequacy of each program’s established award procedures and
criteria for evaluating applications. For programs with procedures deemed to be adequate, we
ascertained whether the procedures were followed in making awards in fiscal year 1997. For
programs with procedures considered to be inadequate or lacking, we evaluated the processes actually
used to make fiscal year 1997 award decisions. Finally, we issued an individual report on each
program, with appropriate recommendations. A list of the reports is provided in Appendix IV.

This report summarizes the results of the individual audits, identifies crosscutting issues, highlights “best
practices,” identifies weaknesses in departmental policies and practices, and offers appropriate
recommendations for improvement.

We reviewed the management and internal control systems applicable to the Office of Administration,
which has the overall responsibility for administering the Department’s financial assistance activities.
Except as disclosed herein, we found that the systems were basically reliable. However, we
determined that we could not rely on the computer-processed data maintained by the Office of
Administration’s Federal Assistance Award Data System (FAADS). Therefore, we had to rely on
each awarding operating unit’s financial assistance records to determine the amount of obligations and
number of awards for fiscal year 1997. We also researched and reviewed the various related audit and
other reports listed in Appendix V.

We conducted the audit in accordance with generally accepted government auditing standards, and
under the authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated May 22, 1980, as amended.

                                                     -3-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000
                   FEDERAL LAWS, REGULATIONS, AND PROCEDURES
                   THAT GUIDE DISCRETIONARY FUNDING DECISIONS
                            ENCOURAGE COMPETITION

Competition is generally recognized as the most effective method of ensuring that financial assistance
awards are made on the basis of merit. One of the primary purposes of the Federal Grant and
Cooperative Agreement Act (31 U.S.C. §6301 et seq.) is to encourage competition in the award of
federal financial assistance to the maximum extent practicable in order to fairly and objectively identify
and fund, based on merit, the best possible projects proposed by applicants, and thereby more
effectively achieve program objectives.

The Office of Management and Budget (OMB) has issued guidelines on administering competition-
based financial assistance programs for use by federal agencies. An interagency study group, convened
in 1979 by OMB to examine competition in financial assistance programs, determined that financial
assistance award processes should include three elements in order to ensure effective competition.
These elements, which we strongly endorse, were discussed in OMB’s June 1980 report, Managing
Federal Assistance in the 1980's. They are:

!    Widespread solicitation of eligible applicants and disclosure of essential application and program
     information in written solicitations;

!    Independent application reviews that consistently apply written program evaluation criteria; and

!    Written justification for award decisions that deviate from recommendations made by application
     reviewers.

OMB and the General Accounting Office (GAO) have also issued the following circulars and standards
that set forth the policies and procedures to be followed in administering federal financial assistance
programs:

!    OMB Circular A-89, Federal Domestic Program Information, implements the Federal
     Program Information Act (P.L. 95-220), which requires agencies to systematically and
     periodically collect and distribute current information to the public on federal domestic assistance
     programs, which is accomplished through the semiannual publication of the Catalog of Federal
     Domestic Assistance (CFDA).

!    OMB Circular A-102, Grants and Cooperative Agreements with State and Local
     Governments, requires agencies to provide the public with advance notice in the Federal
     Register, or by other appropriate means, of their intended funding priorities for discretionary
     assistance programs unless such priorities are established by federal statute. Under Circular A-
     102, when time permits, an agency must provide the public with an opportunity to comment on
     funding priorities. In addition, the circular requires all grant awards greater than $25,000 to be
     reviewed for consistency with agency priorities by a policy level official.

                                                    -4-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000


OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other non-Profit Organizations, requires
agencies to provide the public with advance notice of their intended funding priorities for discretionary
assistance programs unless such priorities are established by federal statute.

!    OMB Circular A-123, Management Accountability and Control, implements the Federal
     Managers’ Financial Integrity Act (P.L. 97-255), which requires agencies to establish written
     procedures for all programs and administrative activities, including financial assistance programs,
     that provide reasonable assurance that activities are effectively and efficiently managed to achieve
     agency goals.

!    GAO’s Standards for Internal Controls in the Federal Government, promulgated from the
     Federal Managers’ Financial Integrity Act, requires that agencies clearly document program
     management decisions, such as when selecting official’s award decisions deviate from review panel
     recommendations for awards, and that the documentation be readily available for examination.

Commerce has relied on these guidelines, circulars, and standards in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO) 203-26,
Department of Commerce Grants Administration, requires that (1) Commerce financial assistance
awards be made on the basis of competitive reviews unless a special waiver is obtained, (2)
competitive review processes meet minimum standards outlined in the DAO, and (3) all Commerce
operating units publish, at least annually, a notice in the Federal Register soliciting award applications.
In addition, noncompetitive awards, if any, should be adequately justified in writing as part of an internal
control system defined in OMB Circular A-123 and required by DAO 203-26, Section 4.02.i.

The following chart depicts the basic process and controls for the solicitation, review, and selection of
competitive financial assistance awards, as set forth in DAO 203-26.




                                                    -5-
U.S. Department of Commerce                                                                                                                      Audit Report ATL-10835-0-0001
Office of Inspector General                                                                                                                                    September 2000




                                              Department of Commerce Financial Assistance Awards Process
  Congress




                                     LEGISLATIVE AUTHORITY &
                                     APPROPRIATIONS REQUIREMENTS




                                                                                                                               PREAWARD SCREENING
  Department




                                                                                                                               * Office of General Counsel Review       FINANCIAL
                                      POLICIES &
                                                                                                                                                                        ASSISTANCE
                                      PROCEDURES                                                                               * Office of Inspector General Review     REVIEW BOARD
                                                                                                                                 -- Limited Background Check
                                                                                                                                 -- Credit Review
                                                                                                                                 -- Outstanding Audit Issues




                                                       SOLICITATION
                                                                              REVIEW
  Bureau/Program




                                                                                                      SELECTION                            PREAWARD SCREENING
                                      POLICIES &       Public announcement
                                      PROCEDURES       and notification of    * Independent Review                                         * Outstanding Accounts
                                                                                                      *   Quantitative Scores                                           SIGNED BY GRANT
                                                       financial assistance      Panel(s)             *   Public Policy Considerations       Receivable                 OFFICER
                                                       opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                 * Suspensions & Debarments   OR DESIGNATED
                                                       Federal Register,      * Numeric Ranking       *   Decision Fully Justified and     * Award Prepared Properly    OFFICIAL
                                                       Commerce Business                                  Documented
                                                       Daily, Internet Web
                                                       Sites)
  Financial Assistance Applicants




                                                                                                                                                                           AWARD
                                                       PROPOSAL




                                    * The areas in color represent the parts of the process where we concentrated our audit.




                                                                                                      -6-
U.S. Department of Commerce                                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                                September 2000
                                  FINDINGS AND RECOMMENDATIONS

I.    MOST COMMERCE DISCRETIONARY PROGRAMS ARE ADMINISTERED
      ON COMPETITIVE AND MERIT BASES, BUT OPPORTUNITIES EXIST TO
      IMPROVE FURTHER THEIR AWARD PROCESSES

Of the 33 Department of Commerce financial assistance programs that have full legislative discretion to
independently determine the recipients and funding levels of their awards, 21, or nearly two-thirds, are
administered as competition-based programs, as encouraged by federal law and regulations and
mandated by Department of Commerce policies and procedures. Nonetheless, opportunities exist for
the Department to improve its financial assistance awards processes in order to further enhance and
ensure competition to the maximum extent practicable.

Of the more than 1,700 awards made in fiscal year 1997, almost 1,500, or about 86 percent, were
made by the 21 competition-based programs. Of a total of $803 million in obligations under the “full
discretion” programs, the competitive programs accounted for $740 million, or about 92 percent of the
total amount obligated.

                                                                                                Obligations
      Commerce                                   Number of          Number of
      Full Discretion Programs                   Programs            Awards         (in $ millions)      Percentage

      Competitive                                    21               1,500               740                 92%

      Not competitive 4                              12                 238                63                  8

      TOTAL                                          33               1,738               803                 100


Detailed discussions of specific findings and recommendations on each program are included in the
individual audit reports, a list of which is provided as Appendix IV. Based on these audits, we also
identified opportunities for improving departmental policies, oversight, and technical assistance to
further enhance competition in Commerce financial assistance programs.

Departmental policies and oversight activities could be improved by institutionalizing some of the best
practices successfully used by various Commerce operating units and other federal agencies. Examples
of best practices can be found for all three of the major phases of the award process: solicitation,
review, and selection.




          4
             NIST’s Measurement and Engineering Research and Standards program made 172 awards in fiscal year 1997, of which
125, totaling $17.6 million, were made noncompetitively, and 46, totaling $2.8 million, were made competitively. The information
on the competitive awards made under this program is included in the competitive program counts.


                                                              -7-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000
A.      All but Three Programs Met Minimum Public Notice Requirements,
        but Many Could Benefit by Augmenting Solicitation Methods

The 1980 OMB study identified widespread solicitation of eligible applicants and disclosure of essential
application and program information in written solicitations as one of the three critical elements of
effective competition in the award of discretionary financial assistance. Our audit found that within the
Department of Commerce, 18 of the 21 competitively administered programs met the minimum
departmental requirements that a notice soliciting applications for funding clearly stating the criteria and
the process to be used to review and select applications for funding be placed in the Federal Register.
However, many of these programs could improve the effectiveness of their solicitations by
supplementing their Federal Register notices with other forms of advertising. Examples of best
practices being used successfully by various programs include soliciting applications through Internet
announcements, mailing lists, presentations at conferences, and trade association newsletters. Fifteen
programs used solicitation methods beyond simply publishing notices in the Federal Register. The
number using the various methods are shown in the following table.


     Application Solicitation Methods                                      Number of
     for 21 Competitive Programs                                           Programs Percentage

     Adequate Federal Register Notice                                           18             86

     Catalog of Federal Domestic Assistance                                     19             90

     Internet                                                                   14             67

     Other publications                                                          8             38

     Mailing lists                                                               8             38

OMB Circulars A-102 and A-110, as well as Commerce policy, require agencies to provide the public
with advance notice in the Federal Register of their intended funding priorities for discretionary
financial assistance programs unless such priorities are established by statute. DAO 203-26 specifically
requires that a notice be published in the Federal Register, at least annually, for each Commerce
financial assistance program, announcing the availability of funds, soliciting applications for awards, and
specifying the criteria and the process to be used to review and select applications for funding. Only
one program, NIST’s State Technology Extension Program, failed to have the required notice
published in the Federal Register for
FY 1997; however, this omission has since been corrected.

As previously noted, OMB Circular A-89 requires agencies to systematically and periodically collect
and distribute current information to the public on federal domestic assistance programs. This is
accomplished through the semiannual publication of the Catalog of Federal Domestic Assistance.
The two Commerce programs that were not published in the Catalog during FY 1997 were ITA’s
American Business Center Program and NOAA’s Small Business Innovation Research Program. Both
operating units have since complied with the publication requirement for these programs.



                                                    -8-
U.S. Department of Commerce                                                    Audit Report ATL-10835-0-0001
Office of Inspector General                                                                  September 2000
Programs may improve the effectiveness of their application solicitation efforts by supplementing their
Federal Register notices with other forms of advertising. In fact, the DAO encourages the use of other
announcement media to increase responses. The 15 programs listed below all employed additional
avenues of notification to solicit proposals.

   AGENCY/
   CFDA No.                     PROGRAM TITLE                                  BEST PRACTICES

     ITA

    11.112      Export Promotion-Market Development Cooperator       Internet announcement and mailing list
                Program
    11.114      Special American Business Internship Training
                Program
    11.115      American Business Center

     EDA

    11.300      Public Works and Infrastructure Development          Annual regional conferences, Internet
    11.303      EDA-Technical Assistance                             announcements, and trade associations
    11.304      EDA-Public Works Impact                              newsletters
    11.305      EDA-State and Local Economic Development
                Planning
    11.307      Special Economic Development and Adjustment
                Assistance
    11.312      Research and Evaluation Program

    NOAA

    11.427      Fisheries Development and Utilization Research       Commerce Business Daily, mailing list,
                and Development Grants and Cooperative               and Internet announcement
                Agreements
    11.431      Marine Fisheries Initiative
    11.433      Climate and Atmospheric Research

     NTIA

    11.550      Public Telecommunication Facilities - Planning and   Internet announcement and mailing list
                Construction
    11.552      Telecommunications & Information Infrastructure
                Assistance Program

     NIST

    11.617      Advanced Technology Program                          Commerce Business Daily, Internet
                                                                     announcement, and mailing list



We believe that all Commerce programs could benefit from exploring the types of alternate solicitation
methods listed above. For example, our review of two MBDA programs that provide consulting
services to minority-owned businesses through consulting firms revealed that the agency’s 1997
Federal Register solicitations resulted in only one to three applications from each geographic area for
which it wanted to provide services. Based on the low response rate, we suggested that the programs’
solicitation processes should be expanded beyond Federal Register notices in order to more
effectively reach consulting firms in the geographic areas where the services are to be delivered. We


                                                     -9-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000
concluded, and MBDA agreed, that the agency could benefit from targeting a specific service area with
advertising in local media, such as newspapers and business periodicals. A summary, by program, of
our findings regarding solicitation practices among the 21 competitive programs is presented as
Appendix VI.

The guidance on soliciting proposals contained in the October 1998 draft of the Department’s grants
and cooperative agreement manual is more detailed than the guidance contained in DAO 203-26.
While the DAO encourages the use of other announcement media to increase responses, the draft
manual includes specific examples, such as announcing the availability of financial assistance in the
Commerce Business Daily or other publications, conducting mailings to interested parties, holding
preaward conferences, providing technical assistance to aid potential applicants in understanding
program priorities and grant rules, and publishing comprehensive application kits. We believe that
incorporating more specific guidance into the new manual would significantly benefit departmental
discretionary awards processes.

When clear requirements and evaluation criteria are published in solicitation notices, applicants will have
a better idea of what results are being sought by the program and will be able to prepare proposals that
are more responsive to program needs. Eighteen of the 21 programs that published notices in the
Federal Register for FY 1997 provided clear statements of the criteria to be used in evaluating
applications. However, we found that NOAA’s Fisheries Development and Utilization Research and
Development Grants and Cooperative Agreements Program, and NIST’s Manufacturing Extension
Partnership Program did not clearly state their application review criteria in their solicitation notices.
Both NOAA and NIST have since corrected the problem.

B.      Most Programs Utilized Written Competitive Review Procedures
        and Merit-Based Evaluation Criteria, but Could Benefit from Increasing
        the Independence of Review Panels and Better Documenting Evaluations

The 1980 OMB study also found that independent application reviews that consistently apply written
program evaluation criteria provide a critical element of effective competition in the award of
discretionary financial assistance. As shown in the table on the following page, our audit found that
within the Department of Commerce, 18 of the 21 competitive programs utilized written competitive
review procedures and merit-based criteria to evaluate proposals; however, most programs could
enhance the integrity of the review process by increasing the independence of review panels and better
documenting the results of proposal evaluations. We believe that to ensure a minimum degree of
independence, a review panel should have at least one member who is outside the chain of command of
the selecting official. As shown in the following table, only 7 of the 21 programs met this threshold.
Similarly, only 12 of the 21 programs were found to have adequately documented proposal reviews.




                                                   -10-
U.S. Department of Commerce                                               Audit Report ATL-10835-0-0001
Office of Inspector General                                                             September 2000

      Application Review Process                                         Number of
      for 21 Competitive Programs                                        Programs Percentage

      Program has written procedures for competitively reviewing and         20            95
      evaluating applications

      Review panels used published merit-based evaluation criteria           18            86

      Review panel scored and ranked applications                            15            71

      Review panels adequately documented application evaluations            12            57

      Review panels met minimum independence standard                         7            33

Current departmental policy outlined in DAO 203-26 is somewhat ambiguous on the minimum
requirements for reviewing proposals. For example, the DAO requires that applications receive an
independent, objective review, but it does not define the terms “independent” and “objective.” The
only clear requirement is that a panel of at least three persons conduct the evaluations.

The DAO requires that agency competitive review processes meet the following minimum requirements:

    ! Applications are treated fairly;

    ! Each application receives an independent, objective review by one or more review panels
      qualified to evaluate the applications submitted under the program;

    ! Each review panel includes at least three persons; and

    ! After the review panel has evaluated the applications, the organization unit prepares a rank
      ordering of the applications based solely on the evaluations by the review panel.

Notwithstanding the DAO’s lack of specificity, examples of best practices in reviewing applications
were found among all of the 21 competitive programs. The following three programs, for example,
demonstrated particularly good review practices:




                                                 -11-
U.S. Department of Commerce                                                   Audit Report ATL-10835-0-0001
Office of Inspector General                                                                 September 2000
Table 5
  AGENCY/
  CFDA No.              PROGRAM TITLE                                    BEST PRACTICES

     ITA

    11.115     American Business Center Program     Increased the independence of the review process by
                                                    inviting reviewers from outside US&FCS and the
                                                    Department to participate on review panels.

    NOAA

    11.433     Marine Fisheries Initiative          Used three levels of review: (1) federal and nonfederal
               (MARFIN)                             scientific peer reviewers; (2) federal and nonfederal
                                                    scientific panel; and (3) nonfederal panel.

    NTIA

    11.552     Telecommunications & Information     Used multiple panels of outside reviewers with
               Infrastructure Assistance Program    demonstrated programmatic and technological expertise
                                                    who applied published evaluation criteria to score and
                                                    rank applications.


Only 5 of the 21 programs used review panels largely or wholly made up of reviewers outside the
program office, including 3 that used reviewers outside the federal government. We believe that having
all members outside the chain of command is the best practice.

Most of the competitive programs could enhance the integrity of their review processes and increase
the independence of review panels by implementing practices similar to those cited above and better
documenting the results of proposal evaluations. We found EDA’s regional office reviews to be of
particular concern in this regard.

While the criteria developed by EDA to review applications generally complied with statutory,
departmental, and agency requirements and was designed to result in a merit-based review of
proposals, EDA’s review and selection procedures and practices did not fully comply with
departmental requirements. Specifically, for the period of our review, EDA did not adequately
document its review and selection processes in project review committee minutes or retain proposals
that were rejected for funding for the required three-year period. In addition, the project review
committees in the six regions did not rank proposals, as required by departmental policy, and lacked
requisite independence, since they each consisted entirely of EDA regional office staff and the regional
director, who was also the selecting official.

During our audit, we looked at the best practices used by other government agencies as well as
Commerce operating units that better promote “independence” and the appearance thereof on review
panels. The HHS grants administration manual, which Departmental officials see as among the better
and most comprehensive of its type, requires that each competing application be objectively reviewed
by at least three qualified independent reviewers. The HHS manual also sets forth the criteria that must
be met by individuals in order to be considered independent. Specifically, the reviewers may not
include anyone who, on behalf of the federal government, performed or is likely to perform any of the
following duties for any of the applications or projects in the competition:

                                                   -12-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000
•    Stimulating the submission of the application;

•    Providing substantive technical assistance to the applicant;

•    Reviewing or making recommendations concerning the application in any capacity except as an
     independent reviewer;

•    Approving or disapproving the application;

•    Serving as the federal project officer, or performing grants management functions for the project; or

•    Having line authority over a person who is ineligible for the review based on any of the above
     restrictions.

The Department, too, has previously recognized the importance of and value of independence being
practiced on review panels, for example, preliminary draft guidance on reviewing and evaluating
proposals contained in the October 1998 draft of the Department’s grants and cooperative agreements
manual incorporates many of the best practices that we have identified in various Commerce programs
and in the HHS model. Specifically, the draft manual states:

     “An independent reviewer is an objective, unbiased individual with the requisite expertise,
     knowledge, and experience in a technical field who is appointed to serve on a review panel to
     evaluate or assess the technical merits of an application for financial assistance. An independent
     reviewer, as used in this definition, is one who has not played any role in soliciting, providing
     technical assistance or advice to applicants, and will not be involved in the administration of
     awards made as a result of the applications under review by the review panel on which the
     individual serves. An independent reviewer should not be in the chain-of-command of the
     program’s selecting official. In addition, an independent reviewer must not have a conflict of
     interest with any application under review by the review panel on which he or she serves.”

A summary, by program, of our findings regarding application review practices among the 21
competitive programs is presented in Appendix VI.

C.       Selecting Officials Generally Follow Review Panel Recommendations, but for Some of
         the Decisions that Deviate from Panel Recommendations, There Should be Better
         Documentation

The 1980 OMB study concluded that written justifications for award decisions that deviate from
recommendations made by application reviewers are a critical element of effective competition in the
award of discretionary financial assistance. It has long been recognized that review panels play an
important role in the award screening process and that their recommendations represent one of the
most effective “check and balances” in the process. In 13 of the 21 competitive Commerce programs,
selecting officials followed review panel recommendations. However, in the 7 programs where
selecting officials’ award decisions deviated from review panel recommendations, only 2 adequately
documented their reasons for deviating.


                                                      -13-
U.S. Department of Commerce                                                 Audit Report ATL-10835-0-0001
Office of Inspector General                                                               September 2000


                            Selection Process                            Number of
                      for 21 Competitive Programs                        Programs Percentage

     Selecting officials followed review panel recommendations                 13              62

     Selecting officials adequately documented their reasons for                3              14
     deviating from review panel recommendations

     Best Practices                                                            16              76

The DAO requires agencies to determine the order in which the applications will be selected for
funding. After the review panel has evaluated the applications, program officials must prepare a rank
ordering of the applications based solely on the evaluations of the panel. The selecting official must
base his or her order of selection on the review panel’s rank order of the applications, unless deviations
are appropriate to meet agency priorities or other program requirements that have been published in the
Federal Register.

Examples of best practices were found among the 21 competitive programs. The following seven
programs, for example, illustrate good selection practices:

  Agency/
  CFDA No.                      Program Title                                 Best Practices

     ITA

    11.112      Export Promotion-Market Development             Decisions for funding consistently followed
                Cooperator                                      the review panel’s recommendations.

    11.114      Special American Business Internship Training   Decisions for funding consistently followed
                Program                                         the review panel’s recommendations.

    11.115      American Business Center Program                Decisions for funding consistently followed
                                                                the review panel’s recommendations.

    NIST

    11.603      National Standard Reference Data System         The highest scoring proposals were
                                                                consistently selected.

    11.611      Manufacturing Extension Partnership             Decisions for funding consistently followed
                                                                the review panels recommendations.

    11.612      Advanced Technology Program                     Decisions that deviated from panel
                                                                recommendations were adequately justified.

    NOAA

    11.476      Small Business Innovation Research Program      Decisions that deviated from panel
                                                                recommendations were adequately justified.




                                                      -14-
U.S. Department of Commerce                                                 Audit Report ATL-10835-0-0001
Office of Inspector General                                                               September 2000

Guidance on reviewing and evaluating proposals contained in the October 1998 draft of the
Department’s grants and cooperative agreements manual incorporates many of the best practices that
we identified during our audits of individual Commerce financial assistance programs. According to the
draft manual, the selecting official must use review panel rank ordering and other selection criteria
published in the solicitation in making the selections. The selecting official must also prepare a
recommendation package that consists of the following documentation:

    •   Relevant pages of authorizing legislation and appropriations act;
    •   Federal Register notice and any other notices that solicited applications;
    •   Description of the competitive review process;
    •   List of review criteria;
    •   List of selection factors;
    •   Any review instructions and other review documents provided to the reviewers;
    •   List of reviewers;
    •   List of all applications/proposals received;
    •   List of all applications/proposals rejected and the reason(s) for rejection;
    •   List by rank order of the results of the review of applications by the reviewers; and
    •   List of applications selected and the reason for selection if out of rank order.

A summary, by program, of our findings regarding selection practices among the 21 competitive
programs is presented as Appendix VI.




                                                  -15-
U.S. Department of Commerce                                               Audit Report ATL-10835-0-0001
Office of Inspector General                                                             September 2000

II. SOME PROGRAMS THAT SHOULD BE COMPETITIVE ARE NOT,
    AND NONCOMPETITIVE AWARDS NEED TO BE BETTER JUSTIFIED

Twelve of the 33 full discretion programs included in our audits were not being administered as
competition-based programs, but instead obligated all discretionary funds in fiscal year 1997 through
inadequately or inappropriately justified sole source awards. Ten of these programs are administered
by NOAA; one is administered by the Office of the Secretary, and one is administered by NIST. The
following is a list of the noncompetitive programs and the number and the dollar amount of awards
made under those programs in fiscal year 1997 obligations.

Table 8
                                NONCOMPETITIVE PROGRAMS
 Agency/ CFDA                                                                                  No.
     No.                                 Program                          Obligations       of Awards

     NOAA

     11.426       Financial Assistance for Ocean Resources Conservation         $417,380         4
                  & Assessment Program

     11.430       Undersea Research                                            10,892,536       13

     11.440       Research in Remote Sensing of the Earth and                   3,274,608        6
                  Environment

     11.454       Unallied Management Projects                                  1,217,050        8

     11.455       Cooperative Science and Education Program                     3,736,104       35

     11.462       Hydrologic Research                                            532,973         8

     11.463       Habitat Conservation                                          6,546,958        7

     11.467       Meteorologic and Hydrologic Modernization                     4,934,376        7
                  Development

     11.472       Unallied Science Program                                      4,114,623       13

     11.473       Coastal Services Center (CSC)                                 2,023,651        8

      NIST

     11.609       Measurement and Engineering Research & Standards             24,080,899      126

      O/S

     11.702       Postsecondary Internship                                      1,052,307        3

     TOTAL                                                                    $62,823,465      238




                                                   -16-
U.S. Department of Commerce                                                    Audit Report ATL-10835-0-0001
Office of Inspector General                                                                  September 2000

Current departmental policy on noncompetitive awards lacks sufficient clarity and specificity to ensure
uniform interpretation and application. DAO 203-26, Section 4.02.i, “Unsolicited Proposals,” contains
the Department’s only policy on noncompetitive awards. It simply states:

        “No unsolicited proposal may be funded outside the competitive process if that
        proposal is one which falls within the program goal of a competitive program. If outside
        the parameters of a competitive program, an unsolicited proposal must enhance the
        financial assistance objectives of the sponsoring organization unit. The decision to fund
        an unsolicited proposal must be fully justified and included in the official grant file.”

The DAO defines unsolicited proposals as applications for financial assistance that are not received as a
result of a direct solicitation in the Federal Register, Commerce Business Daily, or other publication.
The principal problem is that the Department’s policy does not clearly define the conditions under
which an unsolicited proposal may be justified for a noncompetitive award.

However, the Department’s grants and cooperative agreements manual currently being drafted defines
the conditions under which noncompetitive awards may be made. It states that if an application
warrants review on a noncompetitive basis, an appropriate program official must provide to the grants
officer for approval a written justification for the noncompetitive award that falls within one of six listed
categories. For example, the draft manual would permit a noncompetitive award to be justified under
either of the two following categories:

        Only One Source Identified. In some cases, only one responsible applicant may be identified
        to perform the work of the proposed award. This includes an applicant identified as a result of
        the initiative of an organization where the application does not fall within the scope of a
        published competitive notice.

        Unusual and Compelling Urgency. The work to be conducted is of such an unusual and
        compelling urgency that the public interest would be seriously injured unless the program office
        is allowed to limit or suspend competition for the proposed ward.

Although a proposal may be justified for noncompetitive funding on an exception basis, entire programs
should not be administered on a noncompetitive basis unless mandated by law, as were the 34
programs we classified as limited discretion programs. Authorizing legislation for those programs either
specifically identified the recipients or significantly limited the pool of applicants; therefore, competition
was not necessary or appropriate. In response to the individual program audits in which we questioned
noncompetitive awards, agency officials agreed that more awards should be competitively awarded.
For example, NOAA’s response stated:




                                                     -17-
U.S. Department of Commerce                                                 Audit Report ATL-10835-0-0001
Office of Inspector General                                                               September 2000

        “We will pursue all options available as appropriate to increase the use of competition
        in grants and cooperative agreements to the greatest extent possible. NOAA has
        already begun its review of noncompetitive awards to identify those that can possibly be
        made using open competition. It is anticipated that a full review of all awards will occur
        in FY2000. If a determination is made that a competitive award is appropriate, open
        competition will be used.”

We are encouraged by the bureaus’ constructive responses to our individual program audit findings and
recommendations, as well as by their prompt efforts to make improvements.

III.    OPPORTUNITIES EXIST FOR THE DEPARTMENT
        TO IMPROVE COMPETITIVE AWARD PROCESSES

In developing and issuing its policies and procedures, the Department has formally embraced federal
law and guidelines that encourage competition in the award of financial assistance to the maximum
extent practicable. At the same time, opportunities exist to improve upon them. The current
Commerce DAO on grants administration lacks clarity and specificity in the guidance it provides in
certain instances. We have, however, identified examples of many best practices, which could be
incorporated into the Department’s new grants manual that would make generally good processes
better. There are also opportunities to improve Department-level oversight and technical assistance
procedures and practices to further enhance competition within Commerce financial assistance
programs.

Responsibility for developing and implementing department-wide financial assistance administrative and
operational policies rests with the Office of Executive Assistance Management (OEAM) within the
Office of Budgeting and Assistance Management under the Department’s Chief Financial Officer and
Assistant Secretary for Administration. Certain sections of DAO 203-26 task OEAM with specific
responsibility for overseeing departmental financial assistance awards processes and practices, and for
providing technical assistance to Commerce operating units in their financial assistance award programs.
OEAM’s functions include developing and issuing a grants management procedures manual, evaluating
operating units’ grants administration policies and procedures, and maintaining the Department’s
contributions to the Federal Assistance Award Data System, which tracks agency financial assistance
obligations.

Grants Manual

DAO 203-26, Section 4.03, authorizes OEAM to develop, issue, and maintain a manual covering
grants management procedures, subject to review and comment by the Office of Inspector General.
According to OEAM officials, they recognize the need for a Commerce Grants Manual and have been
trying to develop and issue a manual for several years, but because the various agencies’ assistance
programs are so numerous and diverse, it has been extremely difficult to obtain consensus on the
procedures to be included. In fact, they indicated that the procedures for administering competitive
awards processes have been some of the more controversial sections of the draft manual.


                                                  -18-
U.S. Department of Commerce                                              Audit Report ATL-10835-0-0001
Office of Inspector General                                                            September 2000

OEAM’s most recent attempt to develop and issue a manual grew out of the work of the Financial
Assistance Procedures Review Task Force. OEAM officials have been diligently working to develop
and issue the manual since the task force report was issued in September 1997, and the OIG has been
providing input on the manual’s development since that time, based in part on the findings of our
individual audits of the Department’s financial award processes. As previously discussed, the new or
expanded awards procedures being included in the draft grants and cooperative agreements manual
would resolve many of the issues raised in the individual program audits and incorporate many of the
best practices identified through these audits.

OEAM Reviews of Award Processes

As part of the Department’s oversight role, DAO 203-26, Section 4.10, requires that OEAM conduct
periodic evaluations of the internal grants administration policies and procedures used by the various
agency programs. According to OEAM officials, the reviews were temporarily suspended in 1997
when the Financial Assistance Procedures Review Task Force was organized, and have not been
reinstated because the new manual has not yet been issued. The Department’s draft manual also
contains provisions for periodic reviews of program awards processes.

Federal Assistance Award Data System

DAO 203-26, Section 4.07, requires that each organizational or program unit provide OEAM with
quarterly reports on all transactions involving the obligation and deobligation of federal financial
assistance funds. This information is then entered into the Department’s Federal Assistance Award
Data System. The 1982 Consolidated Federal Funds Report Act mandates that this data be collected
and disseminated to the Congress, the states, and the public.

Our individual program audits revealed discrepancies between the fiscal year 1997 FAADS reported
dollars in obligations and numbers of awards and those recorded by the individual operating units.
Specifically, FAADS reported a total of $1,103,560,953 in obligations, while the operating units
reported $1,119,103,844, a difference of $15,542,891; FAADS reported a total of 2,784 awards,
while the operating units reported 2,963, or a difference of 179. These discrepancies involved 47 of
the Department’s 72 financial assistance programs. Appendix VII shows the discrepancies in
obligations and number of awards by operating units and program. We verified and accepted the
operating units reported obligations and awards as the correct information.

The FAADS discrepancies were mostly undercounts, but ranged from an overcount of more than $24
million for NOAA’s Fisheries Obligation Guarantee program to an undercount of more than $19 million
for NIST’s Manufacturing Extension Partnership program. Considering the importance of the FAADS
information, OEAM needs to insure that FAADS contains accurate and complete information on
operating units obligations and awards.




                                                 -19-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000

IV.     RECOMMENDATIONS

We issued individual audit reports on each program, with appropriate recommendations. We are now
recommending that the Department help its operating units improve their financial assistance award
processes by (1) clarifying minimal departmental expectations for competition and (2) providing
additional training, as necessary and when requested. More specifically, we recommend that the
Department’s Chief Financial Officer and Assistant Secretary for Administration ensure that the Office
of Administration:

1. Improve the effectiveness of program solicitations by encouraging agencies to supplement Federal
   Register notices with Internet announcements, and use other forms of advertising that have
   demonstrated their value as a “best practice” in enhancing the solicitation process, when
   appropriate.

2. Enhance the integrity of application review processes by (a) defining the minimum criteria for
   independent review panels, (b) offering suggestions, ideas, and best practices for better facilitating
   the use of outside reviewers, and (c) establishing requirements for documenting the results of
   proposal evaluations.

3. Improve documentation of selecting official justifications of award decisions that deviate from
   review panel recommendations by establishing appropriate documentation requirements.

4. Improve the integrity of operating unit award processes by (a) more clearly defining acceptable
   bases for noncompetitive awards and (b) establishing requirements and guidelines and best
   practices for properly justifying and documenting noncompetitive awards. For example, require the
   use of market surveys to validate sole source award justifications.

5. Improve departmental oversight of discretionary spending decisions by (a) reinitiating periodic
   reviews of program award processes and (b) providing training to program and grants officers on
   the Department’s policies and procedures.

6. Improve the integrity of operating unit awards processes by establishing record retention policies
   and procedures for each element of the awards process.

7. Improve the accuracy of reports on transactions involving the obligation and deobligation of federal
   financial assistance funds by reconciling OEAM’s grant database with operating unit databases, at
   least annually.

8. Institutionalize recommended improvements by incorporating them into the “Department of
   Commerce Grants and Cooperative Agreements Manual” that is currently being developed.




                                                   -20-
U.S. Department of Commerce                                                  Audit Report ATL-10835-0-0001
Office of Inspector General                                                                September 2000

V.      FUNDS TO BE PUT TO BETTER USE

As previously discussed, one of the primary purposes of the Federal Grant and Cooperative
Agreement Act is to encourage competition in the award of federal financial assistance to the maximum
extent practicable. An unquantifiable portion of the more than $1 billion a year in discretionary financial
assistance obligated by the Department will be used more efficiently if competitive processes are
improved within the various programs by implementation of the foregoing recommendations and those
contained in the individual program audits.

VI.     DEPARTMENT’S RESPONSE

In response to the draft report, the Department agreed that opportunities exist to further improve the
grants and cooperative agreement processes and, as a result, generally agreed with all of the report’s
recommendations. The Department’s response also commended those program officers and grants
officers who have already taken corrective action on several of the findings contained in the report. The
response further noted that the draft grants manual is expected to allow review panels to include
individuals from within the cognizant program office, but will encourage the use of at least one member
who is outside the chain of command of the selecting official whenever possible. Finally, the response
stated that the Department has taken action addressing recommendation #7 to improve the accuracy of
reports on transactions involving the obligation and deobligation of federal financial assistance funds,
and that the other seven recommendations will be addressed upon issuance of the Department’s Grants
and Cooperative Agreement Manual, which is near completion.

VII.    OIG COMMENTS

As previously discussed, we are pleased by the operating units’ constructive responses to
our findings and recommendations in the individual audit reports on each program. We are
also pleased by the Department’s general concurrence with this summarizing report’s
recommendations, in particular with an agreement to institutionalize recommended improvements by
incorporating them into the grants manual and in ensuring the accuracy of reports on transactions
involving the obligation and deobligation of federal financial assistance funds. Considering the
significance of the improvements to be made and mutual agreements reached as part of this
comprehensive review of 33 programs, we are not objecting to the Department’s decision to merely
encourage, rather than require, that at least one review panel member come from outside the chain of
command of the selecting official.




                                                   -21-
                                                                                           APPENDIX I
                                                                                             Page 1 of 3

                   DEPARTMENT OF COMMERCE OPERATING UNITS
                 ADMINISTERING FINANCIAL ASSISTANCE PROGRAMS




The Department provides federal financial assistance in the areas of grants and cooperative agreements
through the following operating units:

                           The Economic Development Administration (EDA) was established under the
                           Public Works and Economic Development Act of 1965 (42 U.S.C. 3121 et
                           seq.), as amended, to generate new jobs, help retain existing jobs, and
                           stimulate industrial and commercial growth in economically-distressed areas of
the Nation experiencing high unemployment, low income, or sudden and severe economic distress. In
fulfilling its mission, EDA is guided by the basic principle that distressed communities must be
empowered to develop and implement their own economic development and revitalization strategies.
Based on these locally and regionally developed priorities, EDA works in partnership with state and
local governments, regional economic development districts, public and private nonprofit organizations,
and Indian tribes. EDA helps distressed communities address problems associated with long-term
economic distress, as well as sudden and severe economic dislocations including recovering from the
economic impacts of natural disasters, and closure of military installations and other Federal facilities.
EDA provides grants and/or cooperative agreements under the following Programs: Public Works,
Planning, University Centers, Economic Adjustment (including Revolving Loan Funds), Defense
Economic Adjustment, Post- Disaster Economic Recovery, Local Technical Assistance, Trade
Adjustment Assistance, and National Technical Assistance and Research.




                         The International Trade Administration is responsible for most non-agricultural
                         U.S. trade issues and works with the Office of the U.S. Trade Representative
                         in coordinating U.S. trade policy. ITA operates through four principal units:
                         International Economic Policy, Trade Development, Import Administration,
                         and U.S. and Foreign Commercial Service. ITA provides grants and
                         cooperative agreements through several programs to promote trade,
                         investment, and commercial relations, and maintains comprehensive
                         commercial and economic data on particular countries and regions of the
world. ITA grant and cooperative agreement programs are also intended to strengthen domestic
export competitiveness, and promote U.S. industry’s increased participation in international markets.
                                                                                        APPENDIX I
                                                                                          Page 2 of 3



                           The Minority Business Development Agency helps minority owned and
                           operated businesses to achieve effective and equal participation in the
American free enterprise system and helps overcome the social and economic disadvantages that have
limited their participation in the past. MBDA provides grants and cooperative agreements to assist
community based organizations in providing management and technical assistance to minority firms
through a network of business development centers and other assistance mechanisms.




                           The National Institute of Standards and Technology is one of three major

 NIST                      organizations under the Technology Administration which serves the needs of
                           technology-based industry, advocates Federal actions and policies to speed
                           the transfer of technology from the laboratory to the marketplace, and
                           removes barriers to commercializing new technologies by industry. NIST
provides grants and cooperative agreements to aid U.S. industry through research and services,
contribute to public health and safety, and support U.S. scientific and engineering research
communities.




                       The National Oceanic and Atmospheric Administration studies climate and
                       global change; ensures protection of coastal oceans and management of marine
                       resources; provides weather services; and manages worldwide environmental
                       data. NOAA provides financial assistance through the following organizations:


       National Weather Service - reports the weather of the United States and its possessions and
       provides weather forecasts and warnings to the general public;

       National Ocean Service - issues nautical charts; does geodetic surveys; and conducts research
       and develops policies on ocean mining and energy;

       National Marine Fisheries Service - conducts a program of management research and services
       related to the protection and rational use of living resources;

       National Environmental Satellite, Data, and Information Service - observes the environment by
       operating a national satellite system; and

       Office of Oceanic and Atmospheric Research - conducts research related to the oceans and
       inland waters, the lower and upper atmosphere, space environment, and the Earth.
                                                                                         APPENDIX I
                                                                                           Page 3 of 3




                         The National Telecommunications and Information Administration is the
                         principal executive branch advisor to the President on domestic and
international communications and information policies. It ensures effective and efficient Federal use of
the electromagnetic spectrum, develops (with other Federal agencies) policies for international
communications and standards-setting organizations, serves as the federal telecommunications research
and engineering center, and administers grants under the Public Telecommunications Facilities Program
and the Telecommunications and Information Infrastructure Assistance Program.
                                                                                      APPENDIX II
                                                                                        Page 1 of 2
                               DEPARTMENT OF COMMERCE
                               FULL DISCRETION PROGRAMS
                                         FY 1997


  CFDA                                                                                    NO.
 NUMBER                                                                                   OF
BY AGENCY                        PROGRAM                            OBLIGATIONS         AWARDS

  EDA

  11.300    Public Works and Infrastructure Development                $160,157,503         190

  11.303    EDA-Technical Assistance                                     11,133,000         145

  11.304    EDA-Public Works Impact                                       4,644,400          8

  11.305    EDA-State and Local Economic Development Planning             3,486,000          47

  11.307    Special Economic Development and Adjustment                 159,813,631         267
            Assistance

  11.312    Research and Evaluation                                        603,000           5



   ITA

  11.112    Export Promotion-Market Development Cooperator                1,851,714          6

  11.114    Special American Business Internship Training Program          503,180           33

  11.115    American Business Center Program                               649,998           7



 MBDA

  11.800    Minority Business Development Centers (MBDCs)                 9,049,851          41

  11.801    Native American Program (NAP)                                 2,089,463          10

  11.802    Minority Business Resource Development                               0           0



  NIST

  11.603    National Standard Reference Data System (NSRDS)                 57,896           1

  11.609    Measurement and Engineering Research & Standards             26,897,979         172

  11.611    Manufacturing Extension Partnership                          79,453,764          55

  11.612    Advanced Technology Program (ATP)                           216,758,084         146

  11.613    State Technology Extension Program                             200,000           2
                                                                                      APPENDIX II
                                                                                        Page 2 of 2
  CFDA                                                                                    NO.
 NUMBER                                                                                   OF
BY AGENCY                          PROGRAM                          OBLIGATIONS         AWARDS

 NOAA

  11.426    Financial Assistance for Ocean Resources Conservation         $417,380           4
            & Assessment Program

  11.427    Fisheries Development and Utilization Research and            8,334,950          75
            Development Grants and Cooperative Agreements

  11.430    Undersea Research                                            10,892,536          13

  11.431    Climate and Atmospheric Research                             35,100,000         169

  11.433    Marine Fisheries Initiative (MARFIN)                           915,768           11

  11.440    Research in Remote Sensing of the Earth and                   3,274,608          6
            Environment

  11.442    Research in Oceanographic Data Base Management                       0           0

  11.446    Antarctic Marine Living Resources                                    0           0

  11.454    Unallied Management Projects                                  1,217,050          8

  11.455    Cooperative Science and Education Program                     3,736,104          35

  11.459    Climate and Air Quality Research                                     0           0

  11.460    Special Oceanic and Atmospheric Projects                             0           0

  11.462    Hydrologic Research                                            532,973           8

  11.463    Habitat Conservation                                          6,546,958          7

  11.467    Meteorologic and Hydrologic Modernization                     4,934,376          7
            Development

  11.472    Unallied Science Program                                      4,114,623          13

  11.473    Coastal Services Center (CSC)                                 2,023,651          8

  11.476    Small Business Innovation Research Program                    7,348,000          84



  NTIA

  11.550    Public Telecommunication Facilities - Planning and           14,157,734          97
            Construction (PTFP)

  11.552    Telecommunications & Information Infrastructure              20,898,822          55
            Assistance Program (TIIAP)



  O/S

  11.702    Post Secretary Internship                                     1,052,307          3

 TOTAL                                                                 $802,747,303       1,738
                                                                                          APPENDIX III
                                                                                             Page 1 of 4

                                   DEPARTMENT OF COMMERCE
                                 LIMITED DISCRETION PROGRAMS
                                            FY 1997

 CFDA
NUMBER
  BY                                               NO. OF
AGENCY         PROGRAM           OBLIGATION       AWARDS          LEGISLATIVE RESTRICTIONS

 EDA

 11.302   EDA-Support for           $20,591,000     384     Restricted to specified recipients, about 300
          Planning                                          Economic Development Districts, receiving
                                                            non-competitive continuation awards.

 11.313   Trade Adjustment            8,500,000      12     Restricted to companies or individuals
          Assistance                                        damaged by imports, assistance centers
                                                            funded with continuation awards.

  ITA

 11.113   ITA-Special Projects       12,763,853      13     Restricted to recipients identified by
                                                            Congress in appropriations law.

NOAA

 11.400   Geodetic Surveys and        1,843,141      4      Restricted to recipients identified by
          Services                                          Congress in the appropriations law.

 11.405   Anadromous Fish             2,054,117      18     Exempted from competition and authorized
          Conservation Act                                  for sole-source awards by 1992 NOAA
          Program                                           Authorization Act.

 11.407   Interjurisdictional         3,341,539      45     Exempted from competition and authorized
          Fisheries Act                                     for sole-source awards by 1992 NOAA
                                                            Authorization Act and restricted to state
                                                            agencies, in 23 states, authorized to regulate
                                                            commercial fisheries and no state may receive
                                                            less than ½ of 1 percent or more than 6
                                                            percent of the funds appropriated.

 11.408   Fishermen’s                  239,804       33     Restricted to U.S. commercial fishermen for
          Contingency Fund                                  damage/loss of fishing gear and economic
          (Title IV)                                        loss.

 11.409   Fishing Vessel and                 0       0      Restricted to U.S. commercial fishermen for
          Gear Damage                                       damage, loss, or destruction of their fishing
          Compensation Fund                                 vessel by foreign vessels.
          (Section 10)

 11.415   Fisheries Obligation               0       0      Loan guarantees not competed against each
          Guarantee Program                                 other but based on qualifying need.

 11.417   Sea Grant Support          61,813,843     120     Restricted to 29 eligible major universities’
                                                            centers.
                                                                                           APPENDIX III
                                                                                              Page 2 of 4

 CFDA
NUMBER
  BY                                                   NO. OF
AGENCY          PROGRAM              OBLIGATION       AWARDS         LEGISLATIVE RESTRICTIONS

NOAA

 11.419   Coastal Zone                  $46,464,916      35     Restricted to 35 coastal states and U.S.
          Management                                            territories and each must receive no less
          Administration Awards                                 than one percent of the amount
                                                                appropriated each fiscal year, 80 to 90
                                                                percent is allocated by formula.

 11.420   Coastal Zone                    7,224,537      96     Restricted to 35 coastal states and U.S.
          Management Estuarine                                  territories managing 22 designated
          Research Reserve                                      estuarine reserves.

 11.428   Intergovernmental               1,466,645      5      Restricted to six regional climate centers
          Climate Program                                       for non-competitive continuation awards.
          (Regional Centers)

 11.429   Marine Sanctuary                 338,608       3      Restricted to 13 designated marine
          Program                                               sanctuaries.

 11.432   Environmental Research         45,114,414      67     Restricted to 11 major state universities
          Laboratories                                          located near OAR’s research laboratories.
          Cooperative Institutes

 11.434   Cooperative Fishery             1,482,394      12     Exempted from competition and authorized
          Statistics                                            for sole-source awards by NOAA 1992
                                                                Authorization Act and restricted to state-
                                                                mandated fishery conservation agencies.

 11.435   Southeast Area                   910,889       11     Exempted from competition and authorized
          Monitoring and                                        for sole-source awards by NOAA 1992
          Assessment Program                                    Authorization Act and restricted to state-
          (SEAMAP)                                              mandated fishery conservation agencies
                                                                located in 10 southern states.

 11.436   Columbia River Fisheries       15,684,091      12     Exempted from competition and authorized
          Development Program                                   for sole-source awards by NOAA 1992
                                                                Authorization Act and restricted to three
                                                                Pacific Northwest states.

 11.437   Pacific Fisheries Data          5,068,102      14     Exempted from competition and authorized
          Program                                               for sole-source awards by NOAA 1992
                                                                Authorization Act and restricted to four
                                                                Pacific coastal states.

 11.438   Pacific Salmon Treaty           5,088,632      5      Exempted from competition and authorized
          Program                                               for sole-source awards by NOAA 1992
                                                                Authorization Act and restricted to four
                                                                states under the Pacific Salmon Treaty Act.
                                                                                          APPENDIX III
                                                                                             Page 3 of 4

 CFDA
NUMBER
  BY                                                  NO. OF
AGENCY          PROGRAM              OBLIGATION      AWARDS         LEGISLATIVE RESTRICTIONS

NOAA

 11.439   Marine Mammal Data            $2,387,164      9      Exempted from competition and authorized
          Program                                              for sole-source awards by NOAA 1992
                                                               Authorization Act and restricted to six
                                                               state agencies involved in marine mammals
                                                               listed in the Marine Mammal Protection
                                                               and Endangered Species Act.

 11.441   Regional Fishery              10,450,600      12     Restricted to eight mandated councils.
          Management Councils

 11.443   Short-Term Climate              200,000       3      Restricted to one recipient qualified to
          Fluctuations                                         conduct climate-related studies.

 11.444   Aquaculture Program            1,234,000      2      Restricted to continuation grants in Hawaii
                                                               and Alaska by the October 26, 1989,
                                                               Congressional Record.

 11.445   Stock Enhancement of            950,000       1      Restricted to one project and one sole-
          Marine Fish in the State                             source recipient in Hawaii and Washington
          of Hawaii                                            states.

 11.449   Independent Education           112,899       1      Restricted to a non-competitive award to
          and Science Projects &                               two nonprofit organizations in Colorado.
          Programs

 11.450   Integrated Flood                295,269       3      Restricted to seven states under a
          Observing & Warning                                  memorandum of agreement.
          System (IFLOWS)

 11.452   Unallied Industry             41,263,585     253     Three industry disaster non-competitive,
          Projects                                             first-come-first served, assistance
                                                               programs; SE fishing gear damage, NE
                                                               vessel buyback, and certain hurricane and
                                                               other storm damage assistance.

 11.457   Chesapeake Bay Studies         1,815,143      19     Restricted to Chesapeake Bay states,
                                                               Maryland, Virginia, and District of
                                                               Columbia, implementing the 1987
                                                               Chesapeake Bay Agreement.

 11.458   Alaska Salmon                   380,000       1      Exempted from competition and authorized
          Enhancement                                          for sole-source awards by NOAA 1992
                                                               Authorization Act and restricted to the
                                                               State of Alaska agency responsible for
                                                               conserving Pacific salmon resources.
                                                                                             APPENDIX III
                                                                                                Page 4 of 4

 CFDA
NUMBER
  BY                                                    NO. OF
AGENCY          PROGRAM               OBLIGATION       AWARDS         LEGISLATIVE RESTRICTIONS

NOAA

 11.468   Cooperative Institute for        $352,718        4     Restricted to non-competitive awards to
          Applied Meteorological                                 Texas A&M and Florida State Universities.
          Studies (CIAMS) and
          Cooperative Institute for
          Tropical Meteorology
          (CITM)

 11.469   Congressionally                 12,699,813       3     Restricted to recipients identified by
          Identified Construction                                Congress in the appropriations law.
          Projects

 11.470   Office of Administration          400,000        3     Restricted to historically black colleges.
          Special Programs

 11.474   Atlantic Coastal                 3,724,825      22     Restricted to 15 Atlantic coastal states.
          Fisheries Cooperative
          Management Act

TOTAL                                   $316,256,541    1,225
                                                                                  APPENDIX IV
                                                                                     Page 1 of 3

        OIG AUDIT REPORTS ON DISCRETIONARY FUNDING PROGRAMS
 CFDA
                                                                     Report       Report Issuance
Number by                      Report Title
                                                                     Number            Date
 Agency

EDA

  11.300,   EDA’s Financial Assistance Programs’ Award         DEN-11580-0-XXXX   Draft Issued
  11.303,   Processes Needs More Competitive Review and                           May 2000
  11.304,   Selection Procedures
  11.305,
  11.307

  11.312    EDA Research and Evaluation Program Funding        BTD-11548-9-0001   September 1999
            Decisions Should Be Documented

ITA

  11.112    Market Development Cooperator Program Awards       ATL-10999-0-0001   December 1999
            Process Promotes Merit-Based Decisions, But
            Practices Need More Discipline

  11.114    Special American Business Internship Training      ATL-10998-9-0001   September 1999
            Program Award Process Corrected to Ensure
            Independent Review Panels

  11.115    US&FCS American Business Center Program            BTD-10957-9-0001   March 1999
            Funding Decisions Were Merit-Based

MBDA

  11.800    Discretionary Funding Decision Process: Minority   BTD-10956-8-0001   September 1998
            Business Development Center Program

  11.801    Discretionary Funding Decision Process: Native     BTD-10955-8-0001   September 1998
            American Business Development Center Program

NIST

  11.603    National Standard Reference Data System Program    DEN-10962-9-0001   March 1999
            Award Process Promotes Merit-Based Decisions

  11.609    Measurement and Engineering Research and           DEN-10958-0-XXXX   Draft Issued
            Standards Program Should Expand Use of                                April 2000
            Competitive Award Procedures

  11.611    Manufacturing Extension Partnership Program        DEN-10959-9-0001   March 1999
            Awards Process Promotes Merit-Based Decisions
                                                                                  APPENDIX IV
                                                                                     Page 2 of 3

 CFDA
                                                                     Report       Report Issuance
Number by                      Report Title
                                                                     Number            Date
 Agency

 11.612     Advanced Technology Program Award Process          DEN-10960-9-0001   March 1999
            Promotes Merit-Based Decisions

 11.613     State Technology Extension Program Award           DEN-10961-9-0001   September 1999
            Process Designed to Promote Merit-Based
            Decisions, But Process Needs More Discipline

NOAA

 11.426     NOS’s Ocean Resources Conservation &               ATL-11084-9-0001   March 1999
            Assessment Program Awards Were Not
            Competitively Selected

 11.427     NMFS’s Fisheries Development and Utilization       STL-10950-9-0001   September 1999
            Research and Development Grants and Cooperative
            Agreements Program Awards Were Merit-Based,
            But National Program Was Unjustified

 11.430     OAR’s Undersea Research Program Awards Were        ATL-11654-0-0001   March 2000
            Not Competitively Selected

 11.431     Opportunities Exist to Improve the Competitive     STL-10949-0-0001   March 2000
            Review Practices of OAR’s Climate and
            Atmospheric Research Program

 11.433     NMFS’s Marine Fisheries Initiative Program         ATL-11655-9-0001   September 1999
            Promotes Merit-Based Decisions, But Process
            Needs More Discipline

 11.440     NESDIS’s Research in Remote Sensing of the Earth   ATL-10944-9-0001   March 1999
            and Environment Program Awards Were Not
            Competitively Selected

 11.454     NMFS’s Unallied Management Projects Program        STL-10952-9-0001   March 1999
            Awards Were Not Competitively Selected

 11.455     NMFS’s Cooperative Science and Education           STL-10951-9-0001   March 1999
            Program Awards Were Not Competitively Selected

 11.462     NWS’s Hydrologic Research Program Awards           ATL-11140-9-0001   March 1999
            Were Not Competitively Selected

 11.463     NMFS’s Habitat Conservation Program Awards         STL-10953-9-0001   March 1999
            Were Not Competitively Selected
                                                                                   APPENDIX IV
                                                                                      Page 3 of 3

 CFDA
                                                                      Report       Report Issuance
Number by                      Report Title
                                                                      Number            Date
 Agency

  11.467    NWS’s Meteorologic and Hydrologic                   ATL-11405-9-0001   September 1999
            Modernization Development Program Awards Were
            Not Competitively Selected

  11.472    NMFS’s Unallied Science Program Awards Were         STL-10947-9-0001   March 1999
            Not Competitively Selected



  11.473    NOS’s Coastal Services Center Awards Were Not       ATL-11000-0-0001   March 2000
            Competitively Selected

  11.476    Small Business Innovation Research Program          DEN-11001-0-0001   August 2000
            Award Procedures Need Improvement and
            Contracts Are Not the Appropriate Funding
            Instrument

NTIA

  11.550    Public Telecommunication Facilities Program Award   ATL-10945-9-0001   March 1999
            Process Promotes Merit-Based Decisions, But
            Process Needs More Discipline

  11.552    Telecommunications and Information Infrastructure   ATL-10946-9-0001   March 1999
            Assistance Program Award Process Promotes
            Merit-Based Decisions, But Process Needs More
            Discipline

O/S

  11.702    Current DOC Postsecondary Internship Program        BTD-11822-9-0001   September 1999
            Award Process Promotes Merit-Based Decisions
                                                                               APPENDIX V
                                                                                 Page 1 of 2

         RELATED REPORTS ISSUED BY THE OIG AND OTHERS

American Institute of Physics. Role of Peer Review in Assessing the Value of Basic Research.
Bulletin No. 106. College Park, Maryland: 1996.

The Committee on Science, Engineering, and Public Policy. Evaluating Federal Research
Programs: Research and the Government Performance and Results Act. Washington, D.C.:
1999.

National Science Foundation, Office of Inspector General. National Science Foundation
Discretionary Funding Decisions. Letter Report. Washington, D.C.: 1998.

U.S. Department of Commerce, Office of Inspector General. National Institute of Standards
and Technology, Management and Funding Problems Confront the MEP Program. Report
DEN-5434. Washington, D.C.: 1994.

U.S. Department of Commerce, Office of Inspector General. National Institute of Standards
and Technology, Advanced Technology Program Can Benefit From Financial and Management
Improvements. Report ENT-8984. Washington, D.C.: 1997.

U.S. Department of Commerce, Office of Inspector General. National Institute of Standards
and Technology, ATP Has Improved Procedures for Selecting, Monitoring, and Evaluating
Projects. Report TTD-8089. Washington, D.C.: 1996.

U.S. Department of Commerce, Office of Inspector General. National Institute of Standards
and Technology, The Advanced Technology Program Must Improve Documentation of
Selection Decisions. Report TTD-7074. Washington, D.C.: 1995.

U.S. Department of Commerce, Office of Inspector General. National Oceanic and
Atmospheric Administration, Coastal Zone Management and National Estuarine Research
Reserves System Programs Require Management Attention to Increase Effectiveness. Report
IPE-9044. Washington, D.C.: 1997.

U.S. Department of Commerce, Office of Inspector General. National Technical Information
Service’s Traditional Missions Are Well Run, But Management Attention Is Needed For Its
Expansionary Activities. Report IPE-8497. Washington, D.C.: 1997.

U.S. Department of Transportation, Office of Inspector General. Awarding Discretionary
Funds in the U.S. Department of Transportation. MA-1998-155. Washington, D.C.: 1998.

U.S. General Accounting Office. Budget Issues: Earmarking in the Federal Government.
GAO/AFMD-90-8FS. Washington, D.C.: 1990.
                                                                               APPENDIX V
                                                                                 Page 2 of 2



U.S. General Accounting Office. Discretionary Grants: Opportunities to Improve Federal
Discretionary Award Practices. GAO/HRD-86-108. Washington, D.C.: 1986.

U.S. General Accounting Office. Federal Research: Evaluation of Small Business Innovation
Research Can Be Strengthened. GAO/RCED-99-114. Washington, D.C.: 1999.

U.S. General Accounting Office. Federal Research: Observation on the Small Business
Innovation Research Program. Report to Congressional Committees. Washington, D.C.: 1998.

U.S. General Accounting Office. Federal Research: Peer Review Practices at Federal Science
Agencies Vary. GAO/RCED-99-99. Washington, D.C.: 1999.

U.S. General Accounting Office. Peer Review: Reforms Needed to Ensure Fairness in Federal
Agency Grant Selection. GAO/PEMD-94-1. Washington, D.C.:1994.

U.S. General Accounting Office. Principles of Federal Appropriations Law. GAO/OGC-91-5.
Washington, D.C.: 1991.

U. S. General Accounting Office. Transportation Infrastructure: Review of Project Selection
Process for Five FHWA Discretionary Programs. GAO/RCED-98-14. Washington, D.C.:
1997.
                                                                                                                 APPENDIX VI
                                                                                                                    Page 1of 3

                               REVIEW OF DISCRETIONARY AWARDS PROCESSES
                                     SUMMARY SCHEDULE OF FINDINGS
                                    AMONG 21 COMPETITIVE PROGRAMS

                                                   ITA               EDA                 NOAA        NTIA        NIST        MBDA    #

SOLICITATION PROCESS

FINDING 9             PROGRAM CFDA #           11 11 11 30 30 30 30 30 31 42 43 43 47 55 55 60 61 61 61 80 80
º                                               2 4 5    0 3 4 5 7 2 7 1 3          6 0 2 3 1 2 3 0         1

Program information published in Catalog       U   U         U   U   U   U   U   U   U   U   U       U   U   U   U   U   U   U   U   19
of Federal Domestic Assistance.

Adequate solicitation notice published in      U   U     U   U   U   U   U   U   U       U   U   U   U   U   U       U       U   U   18
Federal Register.

Solicitation notice published on the           U   U     U   U   U   U   U   U   U       U   U       U   U           U               14
Internet

Solicitation notice published in other                       U   U   U   U   U   U   U                               U               8
publications

Solicitation notice distributed from mailing   U   U                                 U   U   U       U   U           U               8
list.

Solicitation notice included clear             U   U     U   U   U   U   U   U   U       U   U   U   U   U   U       U       U   U   18
evaluation criteria in Federal Register.

Program information not published in                     Y                                       Y                                   2
Catalog of Federal Domestic Assistance.

Solicitation notice distribution should be                                                                                   Y   Y   2
expanded or targeted.

Solicitation notice did not include                                                  Y                           Y       Y           3
evaluation criteria in Federal Register or
the criteria was too general or vague.

Solicitation notice not publish required                                                                                 Y           1
Federal Register.



     LEGEND:
     U indicates no problem or matter requiring improvement or “best practice.”
     Y indicates problem or matter requiring improvement.
                                                                                                                    APPENDIX VI
                                                                                                                       Page 2of 3

                               REVIEW OF DISCRETIONARY AWARDS PROCESSES
                                     SUMMARY SCHEDULE OF FINDINGS
                                    AMONG 21 COMPETITIVE PROGRAMS

                                                  ITA               EDA                  NOAA         NTIA           NIST         MBDA     #

REVIEW PROCESS
FINDING 9            PROGRAM CFDA #           11 11 115 30 30 30 30 30 31 42 43 43 47 55 55 60 61 61 613 800 801
º                                              2  4      0 3 4 5 7 2 7 1 3          6 0 2 3 1 2

Program has written procedures for            U   U     U   U   U   U   U   U        U   U   U    U   U    U   U    U   U    U    U    U   20
competitively reviewing and evaluating
applications.

Reviewers used merit-based criteria           U   U     U   U   U   U   U   U        U       U    U   U    U   U        U    U    U    U   18
published in Federal Register in evaluating
applications.

Reviewers adequately documented                   U     U                            U       U    U   U    U        U   U    U    U    U   12
application evaluation.

Reviewers were independent experts.                     U                       U    U       U        U    U            U                  7

Reviewers were outside the federal                                                   U       U        U    U            U                  5
government

Program does not have written procedures                                        Y                                                          1
for reviewing and evaluating applications.

Reviewers were not independent experts.       Y   Y         Y Yâ Y      Y   Y            Y        Y             Y   Y        Y    Y    Y   14
Reviewers did not adequately document         Y             Y   Y   Y   Y   Y   Y        Y                      Y                          9
application evaluation.

Reviewers did not use merit-based criteria                                               Y                                                 1
in evaluating applications.

     â Refers to regional administered program, which awards the preponderance of funds; national program has independent reviewers.

     LEGEND:
     U indicates no problem or matter requiring improvement or “best practice.”
     Y indicates problem or matter requiring improvement.
                                                                                                                     APPENDIX VI
                                                                                                                        Page 3of 3

                              REVIEW OF DISCRETIONARY AWARDS PROCESSES
                                    SUMMARY SCHEDULE OF FINDINGS
                                   AMONG 21 COMPETITIVE PROGRAMS


                                                  ITA                 EDA                    NOAA        NTIA        NIST        MBDA   #

SELECTION PROCESS

FINDING 9            PROGRAM CFDA #           11 11 11 30 30 30 30 30 31 42 43 43 47 55 55 60 61 61 61 80 80
                                               2 4 5    0 3 4 5 7 2 7 1 3          6 0 2 3 1 2 3 0         1
º

Selection official followed review panel      U    U    U   U    U    U      U   U   U                           U   U       U       U 13
recommendations.                                            ã    ã    ã      ã   ã

Selection official adequately documented                                                             U                   U       U      3
deviations from review panel
recommendations.

Selection official did not adequately                                                    Y   Y   Y       Y   Y                          5
document deviations from review panel
recommendations.

Program staff changed reviewers’                                                                         Y                              1
evaluation scores before submitting them
to selection official.

Program staff ranked and screened             Y                                                                                         1
applications before reviewers evaluations.

    ã Selection official participated in application review panel process.

    LEGEND:
    U indicates no problem or matter requiring improvement or “best practice.”
    Y indicates problem or matter requiring improvement.
                                                                                     APPENDIX VII
                                                                                        Page 1 of 4


                                 SCHEDULE OF FAADS DISCREPANCIES

                                               PER OEAM         PER AGENCY               DIFFERENCE
 CFDA                                         OBLIGATIONS      OBLIGATIONS               OBLIGATIONS
NUMBER                                            AND              AND                       AND
  BY                                        NUMBER OF AWARDS NUMBER OF AWARDS             NUMBER OF
AGENCY              PROGRAM                                                                AWARDS
EDA
 11.300   Public Works and Infrastructure
          Development                        $ 165,571,603   192   $ 160,157,503   190   5,414,100      2

 11.302   EDA-Support for Planning             21,098,097    371      20,591,000   384     507,097    (13)

 11.303   EDA-Technical Assistance             10,988,000    143      11,133,000   145    (145,000)    (2)

 11.304   EDA-Public Works Impact               4,644,400      8       4,644,400     8           0      0
 11.305   EDA-State and Local Economic
          Development Planning                  3,486,000     47       3,486,000    47           0      0
 11.307   Special Economic Development
          and Adjustment Assistance           161,951,194    268     159,813,631   267   2,137,563      1

 11.312   Research and Evaluation                 609,500      6        603,000      5        6,500     1

 11.313   Trade Adjustment Assistance          10,075,000     12       8,500,000    12   1,575,000      0

ITA
 11.112   Export Promotion-Market
          Development Cooperator                6,045,274     14       1,851,714     6   4,193,560      8

 11.113   ITA-Special Projects                          0      0      12,763,853    13 (12,763,853)   (13)
 11.114   Special American Business
          Internship Training Program             451,560     32        503,180     33     (51,620)    (1)
 11.115   American Business Center
          Program                                 350,000      4        649,998      7    (299,998)    (3)

MBDA
 11.800   Minority Business Development
          Centers (MBDCs)                       8,504,911     38       9,049,851    41    (544,940)    (3)

 11.801   Native American Program (NAP)         1,835,392      9       2,089,463    10    (254,071)    (1)
 11.802   Minority Business Resource
          Development                                   0      0              0      0           0      0
                                                                                     APPENDIX VII
                                                                                        Page 2 of 4


                                                 PER OEAM             PER AGENCY         DIFFERENCE
 CFDA                                           OBLIGATIONS          OBLIGATIONS         OBLIGATIONS
NUMBER                                              AND                  AND                 AND
  BY                                             NUMBER OF         NUMBER OF AWARDS       NUMBER OF
AGENCY                PROGRAM                     AWARDS                                   AWARDS
NIST
 11.603    National Standard Reference Data
           System (NSRDS)                          57,896      1         57,896      1            0      0
 11.609    Measurement and Engineering
           Research & Standards                 44,270,814   193      26,897,979   172   17,372,835    21
 11.611    Manufacturing Extension
           Partnership                          59,864,552    43      79,453,764    55 (19,589,212)    (12)
 11.612    Advanced Technology Program
           (ATP)                               206,382,169   142     216,758,084   146 (10,375,915)     (4)
 11.613    State Technology Extension
           Program                                200,000      2        200,000      2            0      0

NOAA

  11.400   Geodetic Surveys and Services         1,351,141     3       1,843,141     4    (492,000)     (1)
  11.405   Anadromous Fish Conservation
           Act Program                           1,690,481    16       2,054,117    18    (363,636)     (2)

  11.407   Interjurisdictional Fisheries Act     2,879,210    42       3,341,539    45    (462,329)     (3)
  11.408   Fishermen's Contingency Fund
           (Title IV)                                    0     0        239,804     33    (239,804)    (33)
  11.409   Fishing Vessel and Gear Damage
           Compensation Fund (Section 10)
                                                         0     0                                  0      0
  11.415   Fisheries Obligation Guarantee
           Program                              24,550,000    19              0      0   24,550,000    19

  11.417   Sea Grant Support                    60,553,844   119      61,813,843   120   (1,259,999)    (1)
  11.419   Coastal Zone Management
           Administration Awards                47,723,916    35      46,464,916    35    1,259,000      0
  11.420   Coastal Zone Management
           Estuarine Research Reserve            7,078,537    94       7,224,537    96    (146,000)     (2)
  11.426   Financial Assistance for Ocean
           Resources Conservation &
           Assessment Program                     417,380      4        417,380      4            0      0
  11.427   Fisheries Development and
           Utilization Research and
           Development Grants and
           Cooperative Agreements                8,309,617    75       8,334,950    75      (25,333)     0
  11.428   Intergovernmental Climate
           Program (Regional Centers)            1,466,645     5       1,466,645     5            0      0

  11.429   Marine Sanctuary Program               338,608      3        338,608      3            0      0
                                                                                   APPENDIX VII
                                                                                      Page 3 of 4

 CFDA                                          PER OEAM             PER AGENCY         DIFFERENCE
NUMBER                                        OBLIGATIONS          OBLIGATIONS         OBLIGATIONS
  BY                                              AND                  AND                 AND
AGENCY                                         NUMBER OF         NUMBER OF AWARDS       NUMBER OF
                      PROGRAM                   AWARDS                                   AWARDS

 11.430   Undersea Research                   10,892,536    13      10,892,536    13            0      0
 11.431   Climate and Atmospheric
          Research                            35,568,424   169      35,100,000   169     468,424       0
 11.432   Environmental Research
          Laboratories Cooperative
          Institutes                          42,197,832    63      45,114,414    67   (2,916,582)    (4)
 11.433   Marine Fisheries Initiative
          (MARFIN)                             1,663,319    21        915,768     11     747,551     10

 11.434   Cooperative Fishery Statistics       1,400,994    11       1,482,394    12     (81,400)     (1)
 11.435   Southeast Area Monitoring and
          Assessment Program (SEAMAP)
                                                734,380      9        910,889     11    (176,509)     (2)
 11.436   Columbia River Fisheries
          Development Program                 15,684,091    12      15,684,091    12            0      0

 11.437   Pacific Fisheries Data Program       4,372,102    10       5,068,102    14    (696,000)     (4)

 11.438   Pacific Salmon Treaty Program        1,783,232     3       5,088,632     5   (3,305,400)    (2)

 11.439   Marine Mammal Data Program           1,087,200     6       2,387,164     9   (1,299,964)    (3)
 11.440   Research in Remote Sensing of
          the Earth and Environment            3,274,608     6       3,274,608     6            0      0
 11.441   Regional Fishery Management
          Councils                             8,844,600    10      10,450,600    12   (1,606,000)    (2)
 11.442   Research in Oceanographic Data
          Base Management                             0      0              0      0            0      0
 11.443   Short-Term Climate Fluctuations
                                                200,000      3        200,000      3            0      0

 11.444   Aquaculture Program                   452,000      1       1,234,000     2    (782,000)     (1)
 11.445   Stock Enhancement of Marine
          Fish in the State of Hawaii                 0      0        950,000      1    (950,000)     (1)
 11.446   Antarctic Marine Living Resources
                                                      0      0              0      0            0      0
 11.449   Independent Education and
          Science Projects & Programs           112,899      1        112,899      1            0      0
 11.450   Integrated Flood Observing &
          Warning System (IFLOWS)               295,269      3        295,269      3            0      0

 11.452   Unallied Industry Projects          37,399,887   222      41,263,585   253   (3,863,698)   (31)

 11.454   Unallied Management Projects          742,050      6       1,217,050     8    (475,000)     (2)
 11.455   Cooperative Science and
          Education Program                    2,223,980    23       3,736,104    35   (1,512,124)   (12)
                                                                                             APPENDIX VII
                                                                                                Page 4 of 4


                                                   PER OEAM              PER AGENCY            DIFFERENCE
 CFDA                                             OBLIGATIONS           OBLIGATIONS            OBLIGATIONS
NUMBER                                                AND                   AND                    AND
  BY                                               NUMBER OF              NUMBER OF             NUMBER OF
AGENCY                 PROGRAM                      AWARDS                 AWARDS                AWARDS

  11.457   Chesapeake Bay Studies                   1,815,143     19       1,815,143    19              0       0

  11.458   Alaska Salmon Enhancement                       0       0        380,000      1       (380,000)     (1)
  11.459   Climate and Air Quality Research
                                                           0       0              0      0              0       0
  11.460   Special Oceanic and
           Atmospheric Projects                            0       0              0      0              0       0

  11.462   Hydrologic Research                       532,973       8        532,973      8              0       0

  11.463   Habitat Conservation                     6,546,958      7       6,546,958     7              0       0
  11.467   Meteorologic and Hydrologic
           Modernization Development                4,934,376      7       4,934,376     7              0       0
  11.468   Cooperative Institute for Applied
           Meteorological Studies (CIAMS)
           and Cooperative Institute for
           Tropical Meteorology (CITM)
                                                     307,718       3        352,718      4        (45,000)     (1)
  11.469   Congressionally Identified
           Construction Projects                  12,699,813       3      12,699,813     3              0       0
  11.470   Office of Administration Special
           Programs                                  400,000       3        400,000      3              0       0

  11.472   Unallied Science Program                 4,064,623     12       4,114,623    13        (50,000)     (1)

  11.473   Coastal Services Center (CSC)            1,895,651      7       2,023,651     8       (128,000)     (1)
  11.474   Atlantic Coastal Fisheries
           Cooperative Management Act               2,254,825     20       3,724,825    22     (1,470,000)     (2)
  11.476   Small Business Innovation
           Research Program                          449,112       6       7,348,000    84     (6,898,888)    (78)

NTIA
 11.550    Public Telecommunication
           Facilities - Planning and
           Construction (PTFP)                    16,412,988     103      14,157,734    97      2,255,254       6
 11.552    Telecommunications &
           Information Infrastructure
           Assistance Program (TIIAP)             19,112,975      52      20,898,822    55     (1,785,847)     (3)

O/S


 11.702    Post Secondary Internship                 458,654       2       1,052,307     3       (593,653)     (1)

TOTAL                                          $1,103,560,953   2,784 $1,119,103,844 2,963 ($15,542,891)     (179)
